HHS/OIG-Audit--"Saint Louise Hospital and Health Center's skilled
nursing facility billings and costs for ancillary, (A-09-96-00078)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Saint Louise Hospital and Health Center's Skilled Nursing Facility Billings
and Costs for Ancillary Medical Supplies for the Period July 1, 1992 through
June 30, 1994," (A-09-96-00078)
May 7, 1997
Complete Text of Report is available in PDF format
(172 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report discloses that Saint Louise Hospital and Health Center's skilled
nursing facility (SNF) billed Medicare for ancillary medical supplies that were
not in compliance with Medicare's rules and misclassified significant costs
on the Medicare cost reports. About 54 percent of the amount billed as ancillary
medical supplies and 55 percent of the amount claimed as ancillary medical supply
costs in our judgmental samples were for routine medical supplies on the Medicare
cost reports for fiscal year ended June 30, 1993 and June 30, 1994.
However, the improper billings and cost classifications did not have a material
financial effect for our 2-year review period because the SNF had an exemption
from the Medicare limit on its routine costs during this time period.
We recommended that Blue Cross ensure that Saint Louise Hospital and Health
Center's SNF identifies and adjusts its claims to reverse all routine items
billed as ancillary medical supplies, identifies and reclassifies any routine
costs previously claimed as ancillary on its costs reports, and does not bill
or claim future routine medical supplies as ancillary.